Additionally, we identified opportunities to restructure future ITVS grant agreements to
facilitate better CPB oversight and provide more accountability over ITVS grant activities.
Further, CPB grant requirements for cash reimbursement need to be clarified to more
effectively manage CPB’s cash payments to ITVS. These actions will allow CPB to
provide better oversight of unused grant funds, as well as, improve CPB’s cash
management practices.

We performed this audit based on the Office of Inspector General’s (OIG) annual audit
plan objective to perform reviews of a cross-section of stations and organizations
comprising the public broadcasting system. We performed our audit in accordance with
Government Auditing Standards for financial audits. Our scope and methodology is
discussed in Exhibit A.

In response to the draft report, ITVS management did not agree with our findings
concerning the costs questioned related to de-obligated funds, reporting interest earned
on ancillary income, reporting variances between budgeted and actual expenditures,
requiring producers to discretely account for CPB grant funds, and portions of our
analysis used in our finding regarding restructuring future grant agreements. However,
ITVS did agree with our finding regarding the need to submit annual reports for interest
earned on CPB cash-on-hand, and indicated a willingness to evaluate our
recommendations regarding restructuring future grants agreements with CPB. ITVS’
complete response to the draft report is attached in Exhibit Q.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position on
these matters. Accordingly, this report contains recommendations the OIG believes
would be appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible for
determining the corrective actions to be taken. Based on ITVS’ response to the draft
report, we consider recommendations 1 through 9 unresolved, pending a final
management decision by CPB on the findings and recommendations.

Please provide us a written response to our findings and recommendations within 180
days of this final report. For corrective actions planned, but not completed by the
response date, please provide specific milestone dates when planned corrective actions
will be completed.




                                             2
                                     BACKGROUND

In 1988, Congress mandated the creation of a service dedicated to independently
produced programming that takes creative risks, sparks public dialogue, and gives voice
to underserved communities. Since 1990, as required by its authorizing legislation, CPB
has funded an independent television production service. ITVS is a separate entity from
CPB and contracts with CPB to fund public television programs produced by independent
producers and independent production entities. As required by law, these funds are to be
used to expand diversity and promote innovation in programming available to public
broadcasting.

ITVS was incorporated on September 22, 1989 and began operations in St. Paul,
Minnesota in 1991. Now headquartered in San Francisco, California, ITVS is governed by
a 13-member board of directors, which includes independent producers, media arts center
executives and programmers, public television managers, academics and independent
media experts. ITVS plays a major role in developing independent projects for public
television, and currently delivers 50 to 60 hours of independently produced programs to
public television each year, which is a significant percentage of the independent work
supported by CPB. Station usage of ITVS programs has increased over the years, and in
2008 ITVS programming won 86 awards and honors, including an Academy Award
nomination, four Emmy Awards, and three George Foster Peabody Awards, among others.

The primary work of ITVS is to provide financial support and services for independent
programming that serves public broadcasting, while pursuing cultural, ethnic and
geographic diversity in its allocation of resources. ITVS employs a wide range of solicitation
strategies and partnerships to find programs that serve its mission. Through its Open Call
and Linking Independents and Co-producing Stations (LINCS) initiatives, general
solicitations are encouraged and accepted on a wide range of subjects or themes. While
the Open Call and LINCS initiatives are limited to providing funds for programs already in
progress to guarantee the completion and delivery of a finished program, ITVS also offers
development support for projects in an early development phase. A separate yearly
solicitation process—both general and by invitation—is used to bring in additional post-
production phase programming for broadcast on PBS’ Independent Lens.

Once approved, ITVS spends 12 to 24 months to prepare funded programs for public
television broadcast. Each program enters the ITVS process at a unique phase in its
production cycle, varying from early development to post-production. Once ITVS has
funded a project its staff provides ongoing support services to producers, including: regular
monitoring of production progress; technical and editorial assistance; as well as, promotion
and outreach support for finished programs.



                                              3
Since 1990 ITVS has received almost $200 million from CPB to fund independent
productions. The most recent multi-year grant ITVS received from CPB was for a 3-year
period (FYs 2008 - 2010) and included two components. The first was a grant for ITVS
operations activities such as, salaries, equipment, insurance, and telephone, and a second
grant for program production, production support, and service to independent producers.
Details concerning these grants follow:

               CPB Grants Awarded to ITVS for FY 2008-2010 Activities

       Fiscal Year     Operations Grant          Production Grant          Total

           2008              $967,784               $11,800,000          $12,767,784

           2009               967,784                11,800,000           12,767,784

           2010              1,016,173               12,390,000           13,406,173

          Totals            $2,951,741              $35,990,000          $38,941,741

In FY 2008, ITVS budgeted $7,800,000 or 66 percent of the $11,800,000 of production
grant funds it received from CPB for program licensing through production and
development contracts. ITVS earmarked an additional 17 percent of the production grant
funds for direct program support costs, such as production management, producer
orientation, reader expenses, program, and production staff payroll, travel and consultants.
The remaining 17 percent was allocated for outreach, station marketing, promotion, web
support, communications staff, and other broadcast support costs. During our audit period,
ITVS awarded 55 new commitments to independent producers for productions during FY
2008 and awarded another 58 new commitments during FY 2009.

The ITVS FY 2008 and 2009 financial statement audits reported total functional expenses
of $19,256,559 and $19,906,197, respectively. Our audit tested CPB funds reported on
Exhibits B – N totaling $13,921,881 in FY 2008 and $15,227,771 in FY 2009.


                               RESULTS OF REVIEW

We audited the accompanying ITVS financial grant reports (Exhibits B - N) as of
September 30, 2008 and 2009. These financial reports are the responsibility of ITVS’
management. Our responsibility is to express an opinion on these financial statements
based on our audit.




                                             4
We conducted our audit in accordance with auditing standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial reports presented are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts reported to CPB and compliance with grant agreement and statutory
requirements. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, except for the following items of noncompliance, the financial grant reports
referred to above present fairly, in all material respects, the CPB grant activities of ITVS
as of September 30, 2008 and 2009 in compliance with grant agreement and statutory
requirements.

      •   Questioned costs of $314,489, related to not returning funds de-
          obligated from CPB grants that had lapsed;
      •   Reporting interest income, totaling $594,000, earned on CPB
          funds held by ITVS;
      •   Reporting variances between operations grant budgets and
          actual expenditures; and
      •   Requiring producers to discretely account for CPB grant funds
          provided by ITVS.

Additionally, we identified opportunities to restructure future ITVS grant agreements to
facilitate better CPB oversight and provide more accountability over ITVS grant activities.
Further, grant requirements for cash reimbursement need to be clarified to more
effectively manage CPB’s cash payments to ITVS. These actions will allow CPB to
provide better oversight of unused grant funds, as well as, improve CPB’s cash
management practices.

In response to the draft report, ITVS management did not agree with our findings
concerning the cost questioned related to de-obligated funds, reporting interest earned
on ancillary income, reporting variances between budgeted and actual expenditures,
requiring producers to discreetly account for CPB grant funds, and portions of our
analysis used in our finding regarding restructuring future grant agreements. However,
ITVS did agree with our finding regarding the need to submit annual reports for interest
earned on CPB cash-on-hand, and indicated a willingness to evaluate our
recommendations regarding restructuring future grants agreements with CPB. ITVS’
complete response to the draft report is attached in Exhibit Q.




                                             5
                     FINDINGS AND RECOMMENDATIONS

Returning De-obligated Grant Funds to CPB

ITVS needed to return production licensing funds de-obligated after the grant term had
expired, and de-obligate unused funds from completed shows in a timelier manner.
Instead of returning the expired funds to CPB as required by its grant agreement, ITVS
spent these funds to complete other more recent productions. ITVS records for the past
19 years disclosed that about 111 shows were completed under budget and almost $1.9
million was de-obligated and then re-obligated to other productions. We estimate that
$735,000 of this amount was from 50 productions, where unused funds were de-
obligated and re-obligated after the CPB grant agreement period had expired. For our
audit period, we questioned $314,489 of this amount that should have been returned to
CPB. Not returning de-obligated funds provided additional funding to ITVS for
productions without CPB’s knowledge and approval. This did not provide CPB the
opportunity to decide how to best utilize these funds to address current CPB priorities.

The current production grant agreement Section II paragraph 1 awarded grants for the
period from October 1, 2007 through September 30, 2010. This paragraph states that . .
. “no production funding shall be provided to ITVS hereunder that is not committed by
ITVS to a third party within three years of the fiscal year of the CPB grant to which such
funding relates.” A subsequent grant amendment further explained that ITVS must
commit FY 2008 grant funds by September 30, 2011, FY 2009 funds by September 30,
2012, and FY 2010 funds by September 30, 2013. The prior production agreement
between CPB and ITVS, dated January 2005, contained similar requirements for grants
awarded in FYs 2005 - 2007.

When productions are completed under budget, ITVS de-obligates (de-commits) the
unused funds and, in almost all cases, re-obligates (re-commits) them in a subsequent
fiscal year to fund another production. Since it takes on average almost three years to
complete a show, and because ITVS generally did not de-obligate these funds in a timely
manner, this de-obligation and re-obligation often took place after the 4-year grant term
had expired. As a result, in many cases identified during our review, the original 4-year
grant agreement used to fund the project had expired and, according to the grant
agreement, the funds were no longer available to be committed for another production.
Instead of returning these funds to CPB, ITVS used them for current production
commitments under a subsequent grant agreement.

ITVS disagreed that funds de-obligated after the 4-year grant had to be returned to CPB.
ITVS believed it met the grant requirement to commit grant funds within the grant term



                                            6
because the funds were originally committed within the grant term. We disagree with
their interpretation of the grant agreement and the use of de-obligated funds after the
expiration of the 4-year commitment period specified in the grant agreement.

ITVS explained that Section III paragraph 6 of the FY2009 production agreement states:

            . . . if any monies advanced for Production Licensing, or any
            other category in the Total Production Budget, are
            subsequently determined not required to be paid for a
            particular program, those monies must be subtracted from
            the next ITVS payment request.

ITVS personnel told us that quarterly payment requests submitted to CPB have always
included adjustments for Production Licensing Contracts that have been written down to
an amount less than the original contract. These adjustments are reported with each
quarter’s payment request on the Production Licensing Fund Schedule of Commitments.
ITVS further explained that by showing a credit on the payment request it reduced the
dollar amount of the payment requested for the current programs, and if it had returned
these under budget amounts to CPB the payment request would have been increased by
the same amount of the credit.

We analyzed ITVS’ payment request and Production Licensing Fund Schedule of
Commitments for the fourth quarter of FY 2009. Our analysis disclosed that ITVS did in
fact provide a $175,230 credit for the amount it de-obligated when 11 production
contracts were completed under budget or cancelled during the fourth quarter of FY
2009. However, $155,3381 of this credit was for seven productions that were funded by
prior production agreements with grant terms that had expired. When ITVS’
reimbursement request deducted the $175,230 credit from the current production grant, it
made these funds now available under the current grant, and allowed ITVS to keep
$155,338 in expired grant funds. Details of the seven productions comprising the
$155,338 that should have been returned to CPB follow:




1
 This total only represents fourth quarter de-obligations for expired grant agreements. Exhibit O provides a
complete listing of FY 2009 de-obligations for expired grant agreements totaling $308,644.


                                                     7
                    FY 2009 Fourth Quarter Credits for Expired Grants


                               Production                  Year        Amount
                              Grant Funds                 Funds     Re-Obligated
           Productions       Originally Used Amount       Expired    in FY 2009

       Absolutely Safe            2004         $196,000    2007         $110,000
       Turned Out                 2002          281,000    2005           11,484
       Death of a Shaman          2001           74,000    2004            7,260
       The Split Horn             1999          132,864    2002            3,364
       Mai’s America              1998          211,543    2001            2,254
       Cushion the Fall           1997           15,000    2000            1,500
       New Cop on the Beat        1996          226,404    1999           19,476
              Total                                                     $155,338

The chart above shows that ITVS originally funded Absolutely Safe with FY 2004 grant
funds. ITVS cancelled this production in FY 2009 and credited $110,000 to the FY 2008-
2010 production grant, even though the originating FY 2004 grant funds had expired in
FY 2007.

Furthermore, ITVS needs to de-obligate unused funds for completed shows in a timelier
manner. During FYs 2008 and 2009, ITVS de-obligated and re-obligated $436,450 of
unused funds for 34 completed or cancelled productions; however, these funds remained
obligated for an average of 4.2 years after the final payments were made to the
producers. We questioned $314,489 in CPB costs applicable to 26 of the 34 productions,
because the funds were de-obligated and re-obligated after the 4-year grant term had
expired, instead of being returned to CPB. The seven productions that ITVS used to
obtain the $155,338 credit on its September 30, 2009 payment request are included in
the $314,489. Exhibit O provides details regarding the 26 productions with amounts de-
obligated and re-obligated during FYs 2008 and 2009 after the 4-year grant term had
expired.

ITVS personnel do not agree that unused funds transferred to a subsequent show after
more than 4 years need to be returned to CPB because they believe the unused funds
were not de-obligated, but only transferred to another production.




                                           8
Recommendations

We recommend that CPB:

   1) enforce existing grant agreement terms and require ITVS to return funds de-
      obligated after the 4-year term to CPB; and

   2) recoup the $314,489 of questioned costs applicable to the unused funds de-
      obligated after the 4-year grant term had expired.

ITVS Response

ITVS believes that it complied with CPB requirements because any funds not spent by
producers were credited against the next ITVS quarterly payment request to CPB as required
by Section IV paragraph 7 of the production agreement. ITVS also indicated that nowhere
in the production agreement is the term "de-obligation" used or is this concept addressed
other than to credit the next quarterly payment request to CPB.

ITVS disagrees with the OIG characterization of "not returning de-obligated funds as
providing additional funding” to ITVS as these funds were part of an annual contract to ITVS
and not an amount in addition to the total ITVS contract amount, especially since these funds
were again used for the intended purpose of funding independent film production.

Furthermore, ITVS explained that if it returned under budget amounts to CPB, the following
quarter's payment request having been reduced by a credit would need to be increased by
the same amount. Therefore, any monies returned to CPB would be offset by a subsequent
increased payment request.

ITVS’ response indicated that many shows are not identified and contracted for until the 2nd
or 3rd year of the 4-year grant term and not the year the underlying grant originated. This
leaves only 1 to 2 years to complete a new show without creating a re-obligation problem
for under budget programs. Rather than asking ITVS to return the under budget funds
which have already been committed to new programs ITVS believes it would make more
sense to recommend that future ITVS/CPB contracts include a clear statement regarding a
time limit on the use of funds related to programs completed under budget. ITVS would
further recommend that such a time limit on the use of under budget contracted funds begin
at the point when a contract is completed, not at the beginning of the fiscal year to which
the underlying CPB contract relates.




                                             9
OIG Review and Comment

Based on ITVS’ management comments we consider recommendations 1 and 2
unresolved pending CPB’s management decision. We do not agree that ITVS complied
with the 4-year grant commitment period requirement when unspent funds from expired
agreements were credited against the next ITVS payment request.

To illustrate, ITVS has until 2008 to commit 2005 funds. As a result, when producers
returned unused 2005 funds to ITVS in 2009 or later, because the production was
completed under budget or cancelled, the funds were no longer available to be
committed and had expired per the grant agreement. When ITVS deducted the 2005
funds from a 2009 or later payment request, it reduced the amount of 2009 or
subsequent year funds it required that quarter by using expired 2005 funds for the new
commitments. By not returning the uncommitted and expired funds ITVS was providing
additional funding to its current grant. For this reason, we questioned the $314,489 and
recommended that ITVS return expired funds de-obligated (uncommitted) after the 4-year
grant term.

We noted ITVS’ assertion that it has only 1 to 2 years to complete a new show without
creating a re-obligation problem for under budget programs. The primary reason this
occurs is because ITVS cannot commit current year production funds in the year
awarded, because as we reported ITVS carried over unused FY 2007 and 2008
production funds that were subsequently committed in FY 2009. We disagree with ITVS’
suggestion that they should be given more time to re-commit these funds, in excess of
the 4-year period that now exists. Alternatively, to eliminate this problem of having to
increase the time available to commit and re-commit funds, we believe the more practical
solution would be to only provide annual production funding to a level that covers projects
that enter into a production agreement during the fiscal year the funds were made
available.

Reporting Interest Earned From Cash-On-Hand and Ancillary Income

ITVS needs to report interest earned from investing the unspent CPB cash-on-hand held
from production and operations grants, as well as, the interest earned on CPB’s share of
ancillary income. In total, ITVS did not report that it had earned $594,000 of interest
income related to CPB funds2 on hand, as required by its grant agreements with CPB.




2
 CPB operations and production grant agreements specify that these funds can be used to fund
productions, but not administrative expenses.


                                                  10
According to ITVS, beginning in 2002 ITVS was required to report interest earned on
CPB related funds. Section IV Paragraph 7 of both the current Production and the
Operations grant agreements state:

           Interest on Funds Each year’s Final Production [and
           Operations] Financial Reports shall set forth the precise
           amount of interest or other investment income earned on all
           CPB Funds (emphasis added) held by ITVS prior to the
           expenditure of such funds.

While ITVS maintained records of interest earned on operation and production grant
funds, ITVS did not report this information to CPB as required by its grant agreements.
As of September 2009, ITVS’ records reflected $544,000 of interest income earned on
unspent CPB production and operation grant fund balances. ITVS acknowledged that it
did not submit this information to CPB. They further explained that the final production
and operations reports submitted to date were accepted by CPB without a request by
CPB for this information and if requested, ITVS would have submitted the interest
reports.

Section V. Paragraph 10 of the current production agreement also requires that each
agreement ITVS executed with independent producers establish that ITVS and CPB are
entitled to a share in the net proceeds from the subsidiary or ancillary rights earned from
the showings of completed programs (“the ITVS/CPB share”). This paragraph also
provides several options for calculating the ITVS/CPB share of the ancillary income due
each organization. Paragraph 10b of the same agreement established the maximum
amount of time ITVS could hold CPB’s share (retention period) by stating:

          ITVS shall not be required to make any payment to CPB of
          CPB’s portion of the CPB/ITVS share . . . from the exercise
          of each Subsidiary or Ancillary Right . . . if within fifteen (15)
          years from the date . . . of this agreement (the “Retention
          Period”) the Retained CPB Share has been contractually
          committed to or expended by ITVS for Direct Production
          Costs of programs to be initially distributed on public
          television. Any portion of the Retained CPB Share that ITVS
          has not contractually committed to or expended for Direct
          Production Costs by the end of the Retention Period shall be
          immediately paid to CPB with interest compounded annually .
          .. .




                                             11
As of September 2009, the total ITVS/CPB ancillary income earned since 1994 was
approximately $1,150,000. This amount was to be split equally between CPB and ITVS.
We estimated that CPB’s share was $574,000 plus interest income earned from 2002.
Further, we found that ITVS did not calculate, maintain records, or report the interest
earned on CPB’s share of ancillary income. Using ITVS records of ancillary income
earned each year since 2002, and the interest rates ITVS used during those years to
calculate interest earned on production and operation funds, we estimate that ITVS has
earned at about $100,000 of interest income on the ancillary income funds it held. CPB’s
share of this amount is $50,000.

By combining the $50,000 in interest earned on CPB’s share of ancillary income with the
$544,000 of interest earned on CPB production and operation funds ITVS held, we
calculated that ITVS earned a total of $594,000 in CPB interest. ITVS was required to
report these interest earnings to CPB.

ITVS officials believe they were not required to calculate and report interest earned on
CPB’s share of ancillary income until after the 15-year retention period had lapsed. They
contend these funds did not belong to CPB until after the retention period had lapsed. As
a result, they believed no interest was due, or needed to be calculated on CPB’s share of
ancillary income, unless the income earned by a production was not spent within 15
years of the program’s completion.

ITVS further explained that the grant agreements, from FY 2002 through 2010, did define
CPB Funding as the Total Production grant or the Total Operation grant, and that these
terms were defined in another section of the agreement as the annual grant amounts.
Based on these definitions ITVS personnel believed it was reasonable for them to
interpret all CPB Funds as not all the money received or held for CPB, including ancillary
income and the interest on these funds, but instead the meaning was constrained to the
narrower category of CPB Funding, i.e., monies given by CPB under the production and
operation grants and not the ancillary income subsequently earned through the
distribution of programs.

We disagree with ITVS’ rationale for not reporting interest earned on production funds,
operations funds, and ancillary income. The grant agreements clearly state that ITVS “. .
. shall set forth the precise amount of interest or other investment income earned on all
CPB Funds (emphasis added). . . .” Additionally, ITVS is not relieved of its responsibility
to report complete and accurate financial information as required by its grant agreements
because CPB did not request the information.




                                            12
The production grant agreement required program producers to pay “the ITVS/CPB
share” during the fifteen year retention period. Because the grant agreement identified a
“CPB share” to be paid during the retention period, we disagree with ITVS’ contention
that the ancillary income and related interest does not belong to CPB until after the
retention period. By not reporting interest, ITVS understated its cash-on-hand balances
and CPB was unaware of the total CPB cash balance available to fund current payments
to producers.

Recommendation

   3) We recommend that CPB require ITVS to report interest earned on production and
      operations grant funds it holds, as well as, the interest earned on CPB’s share of
      ancillary income as required by the production and operations agreements.

ITVS Response

ITVS acknowledged that it did not submit annual reports summarizing interest earned on
CPB funds and explained that the failure to submit these reports did not result in the misuse
of funds or cause any underpayments to CPB or overpayments to ITVS. Additionally ITVS’
response indicated that, as of September 30, 2010, ITVS has now spent $565,000 of
CPB's share of Ancillary Income and $514,781 of the $544,000 of interest earned on CPB
funds. In both cases, the ancillary income and interest income amounts were spent on new
production licensing agreements to create new programming for public television.

ITVS believes the correct interpretation of the grant agreement is that no interest is due or
calculated on CPB's share of Ancillary Income unless that income is not spent on program
production within 15 years. If this condition occurs, then ITVS must pay the income plus
interest earned from the time the ancillary income was received. Furthermore, ITVS
contends that the grant agreement specifies that the amount required to be spent within the
15 year period on Direct Production Costs is the "Retained CPB Share" of ancillary income,
not the Retained CPB Share plus interest accrued. For these reasons, ITVS believes the
OIG has misinterpreted the ITVS/CPB grant agreement language and all references to
interest due on ancillary income should be removed from the OIG report.

ITVS also indicated that it respects the OIG's concern regarding interest calculated on all
CPB funds, and believes it would be valid to make a recommendation for future versions of
the ITVS/CPB Production agreement that interest be calculated on CPB's share of ancillary
income.




                                              13
OIG Review and Comment

Based on ITVS’ management comments we consider recommendation 3 unresolved
pending CPB’s management decision. While ITVS acknowledged that it should
have reported interest on CPB cash on hand, ITVS still maintained that CPB is not
entitled to interest on its share of ancillary income until after the 15-year retention
period. We disagree and believe it should have been reported until spent within the
15 year period.

Reporting Grant Variances

Our comparison of the actual expenses for the operations grant shown in ITVS’ general
ledger with grant budgets disclosed variances that ITVS should have reported to CPB.
Moreover, ITVS did not request CPB’s prior approval for budget reallocations in excess of
$5,000 in accordance with grant requirements.

Section III, paragraph 3 of the operations agreement specifies that, “ITVS may make
discretionary budget reallocations within the Expense line items up to 10% or $5,000 of
each item of the Total Operations Budget without prior CPB approval; however,
explanation of material variances must be provided.” Section IV, paragraph 4 of the
operations agreement also specifies that, “All financial reports and accountings must
include all expenditures incurred in the performance of the Project, regardless of whether
CPB funds were applied to these expenditures.”

While ITVS’ total fiscal year grant expenses for both operations grants exceeded the
grant budget, the final financial reports that ITVS submitted to CPB for FY 2008 and 2009
operations grants did not meaningfully report actual expenses to CPB or report budget
variances in accordance with grant requirements. Instead, ITVS reduced some reported
expenses, principally payroll, so that financial reports submitted to CPB disclosed
expenses that agreed with approved grant budgets. Our comparison of the FY 2008
operations grant expenses on the final financial report to actual expenses reported in the
financial statements disclosed the following variances:




                                            14
                                   FY 2008 Operations Grant

                                                                                 Variances
                                                                Actual
                                                 Expenses      Expenses     Budget
                                                 Reported      (General      vs.
        Expense Category              Budget      to CPB        Ledger)     Actual       Percent
   Salaries, Taxes, and Benefits      $675,000    $681,601       $732,454   $57,454         9
   Accounting & Audit Fees              23,000        23,086      23,086           86       0
   Conferences & Special Events         53,500        57,889      62,496         8,996     17
   Equipment                            16,000        16,657      16,657          657       4
   Insurance                            10,500        12,993      12,993         2,493     24
   Office                               29,784        27,497      12,687    (17,097)      (57)
   Office Lease                         82,000        70,253      70,253    (11,747)      (14)
   Online Services                      21,000        14,810      14,810     (6,190)      (71)
   Outreach Activities                   4,000         6,415       8,740         4,740     119
   Postage/FedEx/UPS                     4,000         4,808       4,808          808      20
   Printing                              1,000         1,521       1,521          521      52
   Professional Services                21,000        23,569      23,569         2,569     12
   Telephone/Fax                        11,000         9,713       9,713     (1,287)      (12)
   Travel                               16,000      16,972         36,183    20,183        126
                  Totals              $967,784    $967,784     $1,029,970   $62,186         6


Because ITVS did not report actual expenses, the variances between budget and actual
shown above are different from the variances reported to CPB on Exhibits B and C. The
variances between budgeted and actual expenses for the FY 2009 operations grant are
shown in Exhibit P.

ITVS does not agree that it was required to report all operation grant expenditures
because the operations grant states:

                     ITVS agrees that all funds provided by CPB to ITVS
                     under this Agreement are provided on a cost-
                     reimbursement basis only, and that ITVS shall charge
                     CPB only actual costs incurred in performance of this
                     Agreement, up to the amounts reflected in the Total . . .
                     Budget. . . .

Because the Total Operations Budget equals the total amount of CPB funding specified in
the grant, ITVS contends that actual expenses compared to this budget in a financial report
should consist only of CPB funded expenses. Moreover, ITVS personnel explained that the


                                                 15
expenses exceeding the CPB Operations Budget were paid for by ITVS with its own funds
or from other sources. As a result, ITVS personnel believed these non-CPB funded costs
would not be meaningful to CPB and were outside of the Total Operations Grant or the
“Project” as defined in the contract. ITVS explained that it has consistently reported in this
manner for the past 15 years without CPB requesting otherwise or expressing any
difference in interpretation. ITVS personnel also disclosed that over the years they have
provided their audited financial statements to CPB which reported their total costs of
operations from all sources; hence ITVS has always reported its full cost of operations and
productions to CPB. We disagree and believe it is necessary for ITVS to report all
variances as required by the operations grant agreement.

Our discussions with CPB management disclosed that the amount budgeted for each line
item reflected CPB grant priorities. Additionally, the grant required ITVS to report all
expenditures regardless of whether CPB funds were applied. As a result, we believe that
ITVS needed to report budget line item variances for the operation grant on the financial
reports submitted to close out each grant year, and request budget reallocations when
there were material variances from budget line item expenses, as required by the grant.
Without reporting ITVS’ actual costs for the operations grants, CPB did not have a
complete picture of the investment required to effectively oversee and use the funds
awarded to ITVS.

Recommendations

We recommend that CPB require ITVS to comply with grant requirements to report:

   4) actual expenditures for the operations grant.

   5) all variances between each fiscal year’s operations grant actual expenses and
      budgeted amounts for all line items that exceed 10% or $5,000, and obtain CPB’s
      prior approval for significant variances from the budgeted amounts.

ITVS Response

ITVS strongly disagreed with the following OIG statements:

   •   There were variances that ITVS did not report.
   •   There were budget reallocations that required approval.
   •   ITVS financial reports did not meaningfully report actual expenses to CPB.




                                              16
ITVS’ response explained that if the intent of both parties was to report all operations costs
regardless of funding source, this would have required a different budget which included not
only CPB funded operations expenditures but all operations costs regardless of funding
source.

ITVS’ further explained that the FY 2008 – 2010 operations and production agreements had
a typographical error regarding the discretionary budget reallocation threshold, and it should
have been written as "10% and $5,000" of each budget line item, instead of “10% or
$5,000”. The correction of this language was discussed in an e-mail to CPB dated January
22, 2009. Unfortunately an amendment to the contract was discussed but not deemed
necessary by CPB. The understanding that the language should read "10% and $5,000"
was agreed upon by both ITVS and CPB and that the grant would be administered as if it
was written as such.

The closing FY 2008 and FY 2009 Operations reports were prepared with this understanding
which resulted in none of the variances requiring explanations. The fact that CPB did not
ask for any explanations in the acceptance of these reports indicates there was agreement
on the treatment of the error in the contract.

Several line items on the FY 2008 Operations budget presented in the OIG report ranged
from $1,000 to $4,000. With the typographical error, ITVS would have been required to
request budget reallocations for $100 to $400 variances from the budget which would not
have been reasonable given $100 equals 100th of 1% of the Operation grant funds. With the
corrected language, ITVS did not have to request a budget reallocation unless the variance
was greater than $5,000. The final sentence in the above quoted paragraph indicates the
intent of budget reallocation requirements was to capture "material" or significant variances.
Certainly, variances of less than $5,000 cannot be considered material when $5,000 equals
less than half of 1% of the $967,000 Operations grant.

OIG Review and Comment

Based on ITVS’ management comments we consider recommendations 4 and 5
unresolved pending CPB’s management decision. We agree that only "material" or
significant variances need reporting. However, with or without the typographical error,
with or without a budget that shows only CPB funded operations expenditures or all
operations costs, regardless of funding source, we found that 6 of the 14 expense categories
had variances of more than $5,000. Three of these were negative variances for which ITVS
did not expend the amount CPB budgeted. For these six, explanations should have been
provided.




                                              17
Discrete Accounting Needed for Producers

ITVS Production Sub-recipient Grant Agreements did not require producers to separately
account for CPB grant funds used for productions, i.e., effectively track and report on the
use of CPB funds. ITVS’ sub-recipient agreements only required producers to report total
funds expended on their production project from inception of the project until completion.
In many cases the production had been in progress for several years before ITVS
became a funding partner. Without discrete accounting neither ITVS nor CPB can be
assured that CPB grant funds were expended on items eligible and allowable as required
by the ITVS/CPB grant agreement, or that an effective audit of CPB funds could be
performed.

Discrete accounting is essential to fully account and report on CPB receipts and
disbursements and is required by Section VII, paragraph 1 of the CPB Production grant
which provides that ITVS:

          “…shall require each program producer to keep . . . records as
          may be necessary to disclose fully the amount and disposition
          of the proceeds of this Agreement, and to fully disclose: (i) the
          total cost of the program funded and/or acquired pursuant to
          this Agreement; (ii) the CPB funding; (iii) the amount and nature
          of that portion of Program costs supplied by other sources, if
          any; and (iv) such other records as will facilitate an effective
          audit.”

ITVS personnel believe its reporting requirements for producers, as well as, its review
procedures provided reasonable assurance that grant funds were spent in accordance with
the production agreement and CPB requirements. ITVS personnel explained when ITVS
contracts with a producer for $200,000 on a project with an $800,000 budget; ITVS
reviews all $800,000 of its costs, and ensures there is at least $200,000 of valid and
allowable costs incurred from the date of the ITVS agreement until the project is
completed. ITVS contends it is in compliance with Section VII, because the amount and
nature of that portion of Program costs supplied by other sources is quantified and clearly
defined in the producers’ reports to ITVS. ITVS personnel contend the grant agreement
does not require ITVS to ask producers to code individual transactions in their accounting
systems to individual income sources. We disagree and believe the producer should
provide sufficient accounting information to identify CPB receipts and expenditures to
facilitate an effective audit of CPB funds.




                                            18
Recommendation

   6) We recommend that CPB enforce grant terms and require ITVS to ensure
      production licensees provide discrete accounting for CPB grant funds and
      separately report CPB expenditures by including these requirements in sub-
      recipient grant agreements.

ITVS Response

ITVS believes its reporting requirements for producers and its review procedures provide
reasonable assurance that ITVS monies are spent in accordance to the ITVS/CPB
requirements. ITVS also asserts that Section VII of the ITVS/CPB agreement does not
require producers to code individual transactions to individual income sources.

ITVS explained that it requires that producers have segregated accounting systems and
bank accounts for each production. Periodic financial reports are submitted at each stage of
delivery itemizing individual transaction details which add up to the total project funding,
costs, and budget. All individual production costs are reviewed from the ITVS/producer
contract date to ensure all ITVS funding is spent on valid costs. ITVS has been able to
conduct successful and effective audits of its producers with the records required and
believes other auditing entities could as well.

ITVS disagrees with the OIG interpretation of the ITVS Production Contract and believes the
contract does not include language that requires ITVS to have its producers maintain their
project accounting records at the individual transaction level by each funding source.
Although ITVS can respect the OIG making a recommendation in regards to this issue for
future contracts, ITVS believes this should not be noted as an area of non-compliance to the
ITVS Production contract and should be removed as a finding from the report.

OIG Review and Comment

Based on ITVS’ management comments we consider recommendation 6 unresolved
pending CPB’s management decision. Contrary to the ITVS response, the grant
agreement does require producers to discretely account for CPB funds when it specified
that producers’ records must facilitate an effective audit. We do not agree that an
effective audit can be performed unless producers segregate the expenses paid for with
CPB grant funds. As a result, our position concerning this issue remains unchanged.
However, we do agree that resolution of this issue can be applied to future producer
contracts.




                                             19
Restructuring Future Grant Agreements and Clarifying Terms

Based on our audit, we believe there are opportunities to streamline the ITVS grant
agreements to facilitate better CPB oversight and provide more accountability over ITVS
grant activities. Further, grant requirements need to be clarified so that CPB can more
effectively manage its cash payments to ITVS. These actions will allow CPB to provide
better oversight of unused grant funds, as well as, improve CPB’s cash management
practices.

More specifically, we found that separate annual operating and multi-year production
grant agreements were difficult to oversee because of the complexities of tracking
several active production grants over multiple fiscal years. To illustrate, in FY 2009 ITVS
incurred $13.4 million in production expenses. A total of $11 million of this amount was
expensed against the FY 2007 and 2008 CPB production grants; only $2.4 million was
expensed against the $11.8 million CPB 2009 production grant. Further, the tracking of
de-obligated funds from individual projects for expired production grant periods was not
highlighted in the information reported to CPB to identify funds that should be returned to
CPB because the originating grant had expired.

Additionally, we found that ITVS maintained CPB cash balances in excess of its need to
make quarterly production disbursements. While ITVS complied with grant requirements
for requesting cash reimbursements, we estimated that ITVS held an average CPB
quarterly cash balance of almost $5.7 million during FY 2009 and only made estimated
quarterly payments to producers of $3.2 million, resulting in an estimated excess cash
balance of $2.5 million over quarterly needs. In discussing this matter with CPB officials,
we learned they had a different understanding of the grant cash reimbursement
requirements than ITVS. CPB expected ITVS’ reimbursement requests to more closely
match its quarterly payments to production producers.

Finally, we identified that the grant agreement did not specify a timeframe for utilizing the
interest ITVS earned on operations and production funds it received. The agreement did
provide guidance for utilizing the interest earned on ancillary income.

Consolidating Operations and Production Grant Agreements

Based on our review the operations grants were easier to oversee than the production
grants because they were one year grants and were closed annually. The multi-year
production grants were more difficult to oversee, particularly to account for unused grant
funds at the end of the 4-year production grant period, as well as, to ensure compliance
with cash management requirements. Details concerning the Fiscal Year 2008 and 2009



                                             20
Operations grants are shown on Exhibits B and C. Details for the Fiscal Year 2008 and
2009 Production grants are shown on Exhibits I and J.

Similar to other years, the CPB FY 2009 production grant had two major components;
$7.5 million budgeted for production licensing to fund the contracts ITVS awarded to
independent producers, and $4.3 million to fund production support and other associated
support costs incurred by ITVS. To illustrate, the FY 2009 detailed budget follows:

                                FY 2009 Production Grant



                          Expense Categories                                 Budget


                   Production Licensing                                       $ 7,500,000
                   Production Support*                                            742,000
                   Business Affairs*                                              310,000
                   Programming Development*                                       918,000
                   Broadcast*                                                     694,000
                   Outreach*                                                      531,000
                   Promotion*                                                     878,000
                   Web/New Media*                                                 227,000
                                     Total                                   $11,800,000

                           * ITVS internal Other Production Support costs totaling $4.3 million.


The production grant terms allow ITVS up to four years to commit funds to third parties.
Section II paragraph 1 of the current production grant states that, “No production funding
will be provided to ITVS hereunder that is not committed by ITVS to a third party within
three years of the fiscal year of the CPB grant to which such funding relates.” This
provision provides ITVS four years to use a particular year’s funds, i.e., execute a
contract with a producer or incur other expenses.

Managing and accounting for ITVS production grant activities requires significant project
accounting beyond generally accepted accounting principles to address quarterly cash
requests, project cost accounting needs, and overall accountability for the commitment of
production grant funds over the 4-year grant term. With 91 active production agreements
with independent producers at September 30, 2009, spanning 10 grant agreements
dating back to 2000, the grant requirement to draw down funds based on new project
commitments, track available funds from multiple active CPB production grants, and de-
obligate unused funds from completed projects for expired grants requires extensive
recordkeeping. This extensive grant accounting by grant year is required in addition to



                                                    21
the sub-recipient accounting for budgetary compliance with their sub-agreement
requirements.

Our analysis of FY 2009 activities found that ITVS expended $5.7 million for other
production support activities, but only $2.4 million was expensed against the FY 2009
production grant. The balance of $3.3 million was expended against the unused funds
remaining under the FY 2007 and 2008 production grants. Since other production
support primarily covers expenses incurred by ITVS for such things as Business Affairs,
Programming Development, Communications (Broadcast Outreach, Promotion, and
Web), in our judgment these line items could be more effectively managed on an annual
basis, as opposed to managing them over the 4-year production grant period. This would
reduce the recordkeeping now required under the production grant.

Further analysis of the FY 2009 production grant found that none of the $7.5 million
budgeted for production licensing was used during FY 2009 and $1.9 million in other
production support funds also remained available to be used in future fiscal years.
Additionally, on September 30, 2009, ITVS still had not spent $1.6 million of its FY 2008
production grant funds.

Aside from tracking the use of grant funds, our finding on Returning De-Obligated Grant
Funds to CPB, further illustrates the need for better accountability over the commitment
and de-obligation of funds over the four year life of production grants.

Clarifying Cash-on-Hand Requirements

Our review found that ITVS’ average quarterly production cash-on-hand balance ($5.7
million) exceeded quarterly cash disbursements ($3.2 million) to independent producers
in FY 2009. Specifically, we found ITVS’ quarterly reported cash balances ranged from
$1.7 to $5.6 million, for an average quarterly balance of $4.5 million. However, we also
found that ITVS did not report $544,000 of interest earned on CPB grant funds, as well
as, an estimated $50,000 of interest earned on CPB’s share of $574,000 ancillary income
received from completed productions. While ITVS requested cash reimbursement from
CPB in accordance with the grant agreement language (generally accepted accounting
practices and contract commitment language), CPB officials had a different
understanding of these requirements and expected cash reimbursement requests to
more closely align with quarterly cash disbursements made to independent producers.




                                            22
ITVS Production Agreement – FYs 2008, 2009, 2010, Attachment C, Section 1b, states:

           Payment Request forms shall include ITVS’ estimate of its
           cash flow needs to cover Production Licensing funding of
           independently produced programs based on actual projected
           contractual commitments for the last and next calendar
           quarters.

Section IV. Paragraph 6, Actual Costs, states:

           ITVS agrees that all funds provided by CPB to ITVS under
           this Agreement are provided on a cost-reimbursement basis
           only, and that ITVS shall charge CPB only actual costs
           incurred in performance of this Agreement . . . For purposes
           of clarification, CPB agrees that, in accordance with generally
           accepted accounting practices, ITVS may request
           reimbursement for one hundred percent (100%) of the cost
           associated with fully executed grants for Production Licensing
           (as defined in the total Production Budget) so long as ITVS’
           current assets exceed their current liabilities at the time of
           payment request; provided however, if any monies advanced for
           Production Licensing, or any other category in the Total
           Production Budget, are subsequently determined not required
           to be paid for a particular program, those monies must be
           subtracted from the next ITVS payment request.

It appears that the language in these requirements caused confusion between CPB and
ITVS. CPB personnel told us they believed ITVS was requesting reimbursements based
on projected quarterly cash disbursements to producers, because the production grant
required ITVS to “true up” each quarter to bring CPB grant payments to ITVS in line with
ITVS payments to producers. While CPB agreed that some cash float was needed, they
believed that ITVS was performing the “true up”, i.e., reducing subsequent grant payment
requests when payments to producers were less than the amount requested in the
previous quarter. They further explained that this process was intended to bring CPB
grant payments to ITVS in line with amounts ITVS paid to producers.

ITVS personnel explained that their payment requests reported accurate cash-on-hand
balances. We found that except for not reporting interest earned on CPB funds, the
balances ITVS reported were reasonably correct. ITVS also believed that its average
cash balance of $4.5 million was reasonable given that ITVS receives quarterly payments



                                            23
from CPB. ITVS personnel also believe they complied with Paragraph 6. Section IV of the
CPB ITVS Production Agreement provision which states: “For purposes of clarification,
CPB agrees that, in accordance with generally accepted accounting practices, ITVS may
request reimbursement for one hundred percent (100%) of the cost associated with fully
executed grants for Production Licensing.” ITVS personnel further explained that there is no
indication in the grant agreement that there are “grant agreement terms to “true up” requests
for reimbursement to match actual cash disbursements to producers” on a quarterly basis.
For these reasons, ITVS personnel believed they complied with the grant agreement
terms and that the unused funds and cash-on-hand balances were reasonable, as well
as, allowable by its grant agreement with CPB.

The divergent viewpoints of CPB and ITVS personnel concerning: whether ITVS
complied with existing grant agreement terms; what is a reasonable amount of cash-on-
hand; and whether a “true up” was required demonstrates the ambiguities in the current
grant agreement. Additionally, the amount of cash-on-hand and length of time that these
funds were held before being disbursed to independent producers show that the current
reimbursement mechanism was not effective when CPB’s goal was to pay ITVS in
alignment with projected quarterly ITVS cash disbursements to independent producers.

We found based on the productions completed over the past two fiscal years, productions
can take an average of almost 3 years to complete. During FY 2009, ITVS executed
contracts or contract amendments with producers, valued at $7.7 million, and ITVS
requested reimbursement for these funds. ITVS will hold these funds until they are paid
to independent producers in installments over the multiple year life of their sub-recipient
agreements. ITVS records show that commitments made to producers as far back as
2003 still have not been fully paid. Clarifying the CPB reimbursement requirements will
allow CPB to better manage its own cash and invest it for CPB purposes, as opposed to
allowing ITVS to invest it.

Establishing a Timeframe for Using Interest Income

The FY 2008-2010 operations and production grant agreements did not specify a
timeframe for using interest income earned by ITVS on the CPB grant funds it held as
cash-on-hand. As of September 30, 2009, ITVS had earned $544,000 of interest from
CPB operations and production grant funds and about $50,000 of interest earned by
investing CPB’s share of ancillary income.3 In total, ITVS had earned $594,000 in
interest income on CPB funds. ITVS had not expended any of this interest that it had
been accumulating since 2002.


3
    CPB’s share of ancillary income totaled about $574,000.


                                                     24
The production grant agreement Section IV, paragraph 7 establishes that interest or
investment income earned on all CPB funds held by ITVS may be utilized for program
production, but not for administration. While Section V, paragraph 10b of the production
grant agreement provides that CPB’s share of ancillary income must be utilized within 15
years, neither the production nor the operations grants specify a timeframe for using the
interest earned on CPB grant funds held by ITVS. ITVS personnel were aware of the
requirement for expending the interest earned on ancillary income, and had plans for
doing so in order to comply with the grant agreement terms. However, because there is
no current requirement for using interest earned on grant funds, ITVS had not formulated
plans for using this income. Without a specified timeframe for using these funds, ITVS
has held the interest earned, instead of using it to fund new productions.

Recommendations

We recommend that CPB management:

   7) Revise future grants to require production support budget line items, Production
      Support, Business Affairs, Programming, and Communications (Broadcast,
      Outreach, Promotion, and Web) to be funded on an annual basis, similar to the
      operations grant. Payments for production support activities can also be
      reimbursed similar to the operations grant in 3 to 4 payments based on the yearly
      budget and actual expenditures incurred for that grant year.

   8) Clarify production grant reimbursement language to require ITVS to only request
      CPB reimbursements to meet quarterly cash disbursement needs to pay
      production licensees and not base reimbursement requests on contractual
      commitments.

   9) Ensure future production and operation agreements specify a time period for using
      interest earned on CPB operations and production grant funds held by ITVS.

ITVS Response

ITVS’ response separately addressed cash balances and interest income, as follows:

      CPB Cash Balances

The OIG reports states in several areas that for FY 2009 the average CPB cash balance
ITVS held is $5.7 million. This average is based on four month end of quarter cash
balances for the year. An average cash balance calculated using 12 month end cash
balances is more accurate and equals $3.45 million. If the balance of CPB's share of


                                           25
Ancillary Income ($574,000) and Interest on CPB funds ($544,000) is added to the average
CPB cash on hand, the average cash balance would be equal to $4.6 million, which is a full
$1.1 million below the OIG reported average cash balance used in several comments. This
is an overstatement of the average cash balance by 24%.

ITVS spent on average $1.1 million of cash per month during the past three years. $4.6
million would equal four months and one week of CPB cash on hand. This amount appears
to be a reasonable average cash balance given that ITVS receives payments from CPB on a
quarterly basis.

      Interest on CPB Funds

As of September 30, 2009, interest on CPB funds amounted to $543,911. As noted earlier,
ITVS strongly disagrees that the ITVS/CPB Contract requires ITVS to accrue interest on
CPB's share of Ancillary Income. For the sake of discussion, if interest earned on Ancillary
Income since 2002 were to be calculated, interest on Ancillary Income would equal $7,076
as of 9/30/09 and not $70,000 as reported by the OIG.

The related calculation, if it were required, would relate only to interest earned on CPB's
share of Ancillary Income generated by programs funded by the FY2002 to FY2009
contracts (and not the entire CPB share of Ancillary Income earned in those related fiscal
years). Ancillary Income earned from programs funded by ITVS/CPB Production
Agreements prior to FY2002 would not be subject to the "Interest on Funds" clause since no
such clause existed in contracts prior to FY2002. No amendments relating to interest due on
CPB funds have been made to earlier contracts between ITVS and CPB.

In regard to recommendations regarding restructuring future grant agreements with CPB,
ITVS looks forward to evaluating these recommendations and other ideas with CPB's
contracting team to determine what would be the most mutually beneficial and practical
agreements for both ITVS and CPB.

OIG Review and Comment

Based on ITVS’ response we consider recommendations 7, 8, and 9 unresolved pending
CPB’s management decision.

We calculated the $5.7 million average quarterly balance in our report using the cash-on-
hand balances ITVS reported to CPB with its quarterly payment requests. This is the
amount CPB requested that ITVS report. ITVS’ calculation of an average yearly amount
is noted, as is its assertion that a $4.6 million cash on hand balance is reasonable. We
do not agree that our report overstated ITVS’ cash on hand balance or that a $4.6 million



                                            26
average balance is reasonable as ITVS indicated, given that the new production
agreement will provide average cash balances of far less than either $5.7 million or $4.6
million.

ITVS’ response correctly indicated that interest should be calculated starting in 2002 and
not 1994. As a result, we revised our report to show that CPB’s share of ancillary income
was $50,000 versus $70,000. Additionally, we disagree with ITVS’ contention that
ancillary income should be calculated only for shows funded from 2002 forward. The
CPB/ITVS agreement states that CPB is entitled to a share of ancillary income and that
interest shall be reported on all CPB Funds.

Recommendation 9 is the responsibility of CPB management to address during audit
resolution.




                                            27
                                                                                Exhibit A

                          SCOPE AND METHODOLOGY

We conducted our audit of ITVS in accordance with Government Auditing Standards
(GAS) for financial audits to determine the accuracy of costs reported to CPB, and to
assess whether ITVS spent grant funds in accordance with CPB grant agreement
terms, as well as, complied with applicable provisions of the Public Broadcasting Act.
We performed our audit field work during the period July through November 2010.

The scope of the audit included tests of the costs claimed by ITVS on active CPB grants
during the period October 1, 2007 – September 30, 2009. The grants audited included
the production and operations grants, the Securing Digital Rights and Readying ITVS
Programs for Multiplatform Distribution grant, the Securing Digital Rights II grant, My
Source (PAI) Training and Marketing Services grant, and the My Source (PAI)
Community Impact Demo Testimonials Using Independent Producers grant. Final and
interim reports submitted to CPB as of September 30, 2008 and September 30, 2009 are
provided in Exhibits B through N.

In conducting our audit, we reviewed CPB’s grant files and discussed the award and
administration of the grants with CPB officials from the Office of Business Affairs and the
Office of Television Content. At ITVS, we discussed the agreements with financial,
production, and management officials. We also reconciled the financial data maintained
by ITVS in its accounting records for each project to the expenses it reported to CPB.
We tested the accuracy of grant expenditures that ITVS claimed by performing financial
reconciliations and comparisons to underlying accounting records and the audited
financial statements to verify transactions recorded in the general ledger and reported to
CPB on payment requests. We also evaluated compliance with the grant agreement
terms, in part, by testing a judgmental sample of 105 expenditures for the grants
reviewed, valued at almost $2,275,033, against supporting documentation maintained by
ITVS. The transactions tested included a variety of expenditure types such as, payroll,
travel, producer contracts, and consulting fees made during FYs 2008 through 2009.

We also reviewed documentation of ITVS’ compliance with the applicable provisions of
the Public Broadcasting Act. Specifically, we reviewed ITVS’ public inspection files to
verify that it contained all the information required by the Act.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by ITVS’ independent public accountant (IPA), we met with representatives of
the firm that conducted ITVS’ financial statement audit. We reviewed their tests of


                                            28
internal controls and their fraud risk assessment analysis. We also reviewed their test
work on the accuracy of ITVS’ audited financial statements.

In accordance with Government Auditing Standards we gained an understanding of
internal controls over the presentation of the grant reports, cash receipts, and payments
authorizations to plan our substantive testing. Further, to obtain reasonable assurance
that financial reports submitted to CPB were free of material misstatement, we performed
tests of compliance with certain provisions of laws and grant agreement requirements,
when noncompliance could have a direct and material effect on the grant report amounts.




                                            29
                                                                                                           Exhibit B
                                                                                  
                      INDEPENDENT TELEVISION SERVICE, INC.
                   Report to the Corporation for Public Broadcasting
                       Operations FY 2008 Final Financial Report
                          For the 12 Months Ending 9/30/2008
                                                                                                        
                                              CPB FY 2008         Operations           Budget               Percentage  
                                                Budget              Actual            Difference            Difference  
                                                                                                        
Revenue:                                                                                                 
CPB Operations Grant                             $967,784            $967,784                    0                         0 
                                                                                                         
Total Revenue                                    $967,784            $967,784                    0                         0 
                                                                                                         
Expenses:                                                                                                
Salaries, Taxes & Benefits                       $675,000            $681,601             ($6,601)                  (1.0) 
Accounting & Audit Fees                            23,000              23,086                  (86)                 (0.4) 
Conferences, Meetings & Special Events             53,500              57,889              (4,389)                  (8.2) 
Equipment Costs                                    16,000              16,657                (657)                  (4.1) 
Insurance – General, D&O, E&O                      10,500              12,993              (2,493)                 (23.7) 
Office                                             29,784              27,497                2,287                    7.7 
Office Lease & Other Space Costs                   82,000              70,253               11,747                   14.3 
Online Services                                    21,000              14,810                6,190                   29.5 
Outreach Activities                                 4,000               6,415              (2,415)                 (60.4) 
Postage/FedEx/UPS                                   4,000               4,808                (808)                 (20.2) 
Printing                                            1,000               1,521                (521)                 (52.1) 
Professional Services                              21,000              23,569              (2,569)                 (12.2) 
Telephone/Fax                                      11,000               9,713                1,287                   11.7 
Travel                                             16,000              16,972                (972)                  (6.1) 
                                                                                                         
Total Expenses                                   $967,784            $967,784                   $0                    0% 




                                                      30
                                                                                                       Exhibit C
                                                                                  
                    INDEPENDENT TELEVISION SERVICE, INC.
                 Report to the Corporation for Public Broadcasting
                     Operations FY 2009 Final Financial Report
                        For the 12 Months Ending 9/30/2009
                                                                                                                 
                                              CPB FY 2009         Operations           Budget              Percentage  
                                                Budget              Actual            Difference           Difference  
                                                                                                       
Revenue:                                                                                                
                                                                                                        
CPB Operations Grant                             $967,784            $967,784                   0                     0 
                                                                                                        
Total Revenue                                    $967,784            $967,784                   0                     0 
                                                                                                        
Expenses:                                                                                               
                                                                                                        
Salaries, Taxes & Benefits                       $664,000            $667,107            ($3,107)                 (0.5) 
Accounting & Audit Fees                            23,000              21,426               1,574                   6.8 
Conferences, Meetings & Special Events             61,000              56,495               4,505                   7.4 
Equipment Costs                                    16,000              16,632               (632)                 (4.0) 
Insurance – General, D&O, E&O                      11,000               8,018               2,982                  27.1 
Office                                             21,684              22,665               (981)                 (4.5) 
Office Lease & Other Space Costs                   94,000              95,845             (1,845)                 (2.0) 
Outreach Activities                                 8,500               7,696                 804                   9.5 
Postage/FedEx/UPS                                   4,500               5,285               (785)                (17.4) 
Printing                                              500               2,111             (1,611)               (322.2) 
Professional Services                              19,100              18,532                 568                   3.0 
Telephone/Fax                                       9,000               9,812               (812)                 (9.0) 
Travel                                             35,500              36,160               (660)                 (1.9) 
                                                                                                        
Total Expenses                                   $967,784            $967,784                  $0                   0% 




                                                        31
                                                                                                                                                                Exhibit D
                                                                                                                                               
                                                 INDEPENDENT TELEVISION SERVICE, INC
                                     Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2008
                                                            FY 2006 Production
                                                                                                                                                               
                                                                                                                            Correction to 
                                                      CPB Amount  CPB Amount               CPB Total      ITVS Amount         Prior Year     ITVS Amount         ITVS Total 
                                                      Disbursed in  Disbursed in  Disbursed to  Committed in                   Ending       Committed in  Committed 
    FY 2006 Production Funds            Budget         Prior Years      Current Year         Date           Prior Years        Balance        Current Year         to Date 
                                                                                                                                                                         
Production Licensing                    $7,200,000      $3,602,564        $3,371,436        $6,974,000       $5,143,456                 $0      $2,056,544        $7,200,000  
Production Support                         967,000          743,002          223,998           967,000           830,328                           136,672            967,000  
Business Affairs                           860,000          660,825          199,175           860,000           932,692          (72,692)               0            860,000  
Broadcast and Communications             2,000,000        2,000,000                 0        2,000,000         2,000,000                                 0          2,000,000  
Programming Development                    273,000          231,000            42,000          273,000           273,000                                 0            273,000  
                                                                                                                                                                
              Total:                   $11,300,000      $7,237,391        $3,836,609  $11,074,000            $9,179,476         ($72,692)       $2,193,216  $11,300,000  
                                                                                                                                                               
                                                                                                                                                               
                                    Budget Funds Remaining to be Spent as of 9/30/2008 (Budget less ITVS Total Committed to Date)                                           $0  
                                                                                                                                                               
                                    Budget Funds Remaining to be Disbursed by CPB as of 9/30/2008 (Budget less CPB Total Disbursed to Date)                         $226,000  
                                                                                                                                                               
                                                                                                                                                               
* Expenses shown in prior year report should have been capped at $860,000.  Amount spent in excess of the budget, $72,692, represents expenditures of FY 2007 
Programming Funds and are shown there in the FY 2007 Fund report. 




                                                                                      32
                                                                                                                                                                Exhibit E
                                                                                                                                              
                                                 INDEPENDENT TELEVISION SERVICE, INC
                                     Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2008
                                                            FY 2007 Production
                                                                                                                                                               
                                                                                                                            Correction to 
                                                      CPB Amount  CPB Amount               CPB Total      ITVS Amount         Prior Year     ITVS Amount         ITVS Total 
                                                      Disbursed in  Disbursed in  Disbursed to  Committed in                   Ending       Committed in  Committed 
    FY 2007 Production Funds            Budget         Prior Years      Current Year         Date           Prior Years        Balance        Current Year         to Date 
                                                                                                                                                                         
Production Licensing                    $7,500,000      $1,180,000        $2,229,564        $3,409,564                 $0               $0      $5,717,269        $5,717,269  
Production Support                         968,000                0          572,002           572,002                  0                          813,602            813,602  
Business Affairs                           883,000                0          666,825           666,825                  0           72,692         810,308            883,000  
Broadcast and Communications             2,289,000         780,831         1,508,169         2,289,000         1,021,789                         1,267,211          2,289,000  
Programming Development                    160,000                0          160,000           160,000             26,615                          133,385            160,000  
                                                                                                                                                                
               Total                   $11,800,000      $1,960,831        $5,136,560        $7,097,391       $1,048,404           $72,692       $8,741,775        $9,862,871  
                                                                                                                                                               
                                                                                                                                                               
                                    Budget Funds Remaining to be Spent as of 9/30/2008 (Budget less ITVS Total Committed to Date)                                 $1,937,129  
                                                                                                                                                               
                                    Budget Funds Remaining to be Disbursed by CPB as of 9/30/2008 (Budget less CPB Total Disbursed to Date)                       $4,702,609  
                                                                                                                                                               
                                                                                                                                                               
* Expenses shown in prior year report should have been capped at $860,000.  Amount spent in excess of the budget, $72,692, represents expenditures of FY 2007 
Programming Funds and are shown there in the FY 2007 Fund report. 




                                                                                      33
                                                                                                                                               Exhibit F
                                       INDEPENDENT TELEVISION SERVICE, INC
                           Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2008
                                                  FY 2008 Production
                                                                                                                                            
                                                  CPB Amount  CPB Amount               CPB Total      ITVS Amount         ITVS Amount         ITVS Total 
                                                  Disbursed in  Disbursed in  Disbursed to  Committed in                 Committed in  Committed 
   FY 2008 Production Funds        Budget          Prior Years      Current Year         Date           Prior Years        Current Year         to Date 
                                                                                                                                                      
Production Licensing               $7,500,000                $0       $1,180,000        $1,180,000                $0                  $0                 $0 
Production Support                    827,000                 0                 0                 0                0                   0                  0 
Business Affairs                      310,000                 0            28,000            28,000                0              74,687             74,687 
Programming Development               905,000                 0                 0                 0                0              67,417             67,417 
Broadcast                             623,000                 0          160,000           160,000                 0            321,089            321,089 
Outreach                              717,000                 0          155,000           155,000                 0            322,781            322,781 
Promotion                             524,000                 0          167,831           167,831                 0            254,608            254,608 
Web/New Media                         394,000                 0          150,000           150,000                 0            140,368            140,368 
                                                                                                                                             
                        Total:  $11,800,000                  $0       $1,840,831        $1,840,831                $0         $1,180,950        $1,180,950 
                                                                                                                                            
                                                                                                                                            
Budget Funds Remaining to be Spent as of 9/30/2008 (Budget less ITVS Total Committed to Date)                                                 $10,619,050 
                                                                                                                                            
Budget Funds Remaining to be Disbursed by CPB as of 9/30/2008 (Budget less CPB Total Disbursed to Date)                                        $9,959,169 




                                                                           34
                                                                                                                                            Exhibit G
                                                                                                                       
                                       INDEPENDENT TELEVISION SERVICE, INC
                           Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2009
                                                  FY 2006 Production
                                                                                                                                         
                                                    CPB Amount  CPB Amount            CPB Total     ITVS Amount        ITVS Amount           ITVS Total 
                                                    Disbursed in  Disbursed in  Disbursed to  Committed in            Committed in           Committed 
   FY 2006 Production Funds           Budget         Prior Years     Current Year       Date          Prior Years       Current Year           to Date 
                                                                                                                                          
Production Licensing                 $7,200,000       $6,974,000         $226,000      $7,200,000      $7,200,000                 $0          $7,200,000 
Production Support                       967,000          967,000               0         967,000          967,000                 0             967,000 
Business Affairs                         860,000          860,000               0         860,000          860,000                 0             860,000 
Broadcast and Communications           2,000,000        2,000,000               0       2,000,000        2,000,000                 0           2,000,000 
Programming Development                  273,000          273,000               0         273,000          273,000                 0             273,000 
                                                                                                                                          
                          Total:  $11,300,000  $11,074,000               $226,000  $11,300,000  $11,300,000                       $0         $11,300,000 
                                                                                                                                         
                                                                                                                                         
Budget Funds Remaining to be Spent as of 9/30/2009 (Budget less ITVS Total Committed to Date)                                                         $0 
                                                                                                                                         
Budget Funds Remaining to be Disbursed by CPB as of 9/30/2009 (Budget less CPB Total Disbursed to Date)                                               $0 




                                                                         35
                                                                                                                                        Exhibit H
                                                                                                                       
                                       INDEPENDENT TELEVISION SERVICE, INC
                           Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2009
                                                  FY 2007 Production
                                                                                                                                         
                                                    CPB Amount  CPB Amount            CPB Total     ITVS Amount        ITVS Amount           ITVS Total 
                                                    Disbursed in  Disbursed in  Disbursed to  Committed in            Committed in           Committed 
   FY 2007 Production Funds           Budget         Prior Years     Current Year       Date          Prior Years       Current Year           to Date 
                                                                                                                                          
Production Licensing                 $7,500,000       $3,409,564       $3,854,436      $7,264,000      $5,717,269         $1,782,731          $7,500,000 
Production Support                       968,000          572,002         395,998         968,000          813,602           154,398             968,000 
Business Affairs                         883,000          666,825         216,175         883,000          883,000                 0             883,000 
Broadcast and Communications           2,289,000        2,289,000               0       2,289,000        2,289,000                 0           2,289,000 
Programming Development                  160,000          160,000               0         160,000          160,000                 0             160,000 
                                                                                                                                          
                          Total:  $11,800,000         $7,097,391       $4,466,609  $11,564,000         $9,862,871         $1,937,129         $11,800,000 
                                                                                                                                         
                                                                                                                                         
Budget Funds Remaining to be Spent as of 9/30/2009 (Budget less ITVS Total Committed to Date)                                                         $0 
                                                                                                                                         
Budget Funds Remaining to be Disbursed by CPB as of 9/30/2009 (Budget less CPB Total Disbursed to Date)                                         $236,000 




                                                                        36
                                                                                                                                      Exhibit I
                                                                                                                                       
                                      INDEPENDENT TELEVISION SERVICE, INC
                          Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2009
                                              FY 2008 Production Funds
                                                                                                                                       
                                                  CPB Amount  CPB Amount            CPB Total     ITVS Amount        ITVS Amount           ITVS Total 
                                                  Disbursed in  Disbursed in  Disbursed to  Committed in            Committed in           Committed 
   FY 2008 Production Funds        Budget          Prior Years     Current Year       Date          Prior Years       Current Year           to Date 
                                                                                                                                        
Production Licensing               $7,500,000       $1,180,000       $2,596,564      $3,776,564               $0        $5,922,543          $5,922,543 
Production Support                    827,000                 0         827,000         827,000                0           827,000             827,000 
Business Affairs                      310,000            28,000         282,000         310,000           74,687           235,313             310,000 
Programming Development               905,000                 0         905,000         905,000           67,417           837,583             905,000 
Broadcast                             623,000          160,000          463,000         623,000         321,089            301,911             623,000 
Outreach                              717,000          155,000          562,000         717,000         322,781            394,219             717,000 
Promotion                             524,000          167,831          356,169         524,000         254,608            269,392             524,000 
Web/New Media                         394,000          150,000          244,000         394,000         140,368            253,632             394,000 
                                                                                                                                        
                        Total:  $11,800,000         $1,840,831       $6,235,733      $8,076,564      $1,180,950         $9,041,593         $10,222,543 
                                                                                                                                       
                                                                                                                                       
Budget Funds Remaining to be Spent as of 9/30/2009 (Budget less ITVS Total Committed to Date)                                               $1,577,457 
                                                                                                                                       
Budget Funds Remaining to be Disbursed by CPB as of 9/30/2009 (Budget less CPB Total Disbursed to Date)                                     $3,723,436 




                                                                       37
                                                                                                                                           Exhibit J
                                                                                                                     
                                      INDEPENDENT TELEVISION SERVICE, INC
                          Annual Fiscal Year Report for the 12 Month Period Ending 9/30/2009
                                                 FY 2009 Production
                                                                                                                                       
                                                  CPB Amount  CPB Amount            CPB Total     ITVS Amount        ITVS Amount           ITVS Total 
                                                  Disbursed in  Disbursed in  Disbursed to  Committed in            Committed in           Committed 
   FY 2009 Production Funds        Budget          Prior Years     Current Year       Date          Prior Years       Current Year           to Date 
                                                                                                                                        
Production Licensing               $7,500,000                $0      $1,180,000      $1,180,000               $0                $0                  $0 
Production Support                    742,000                 0         157,002         157,002                0           124,119             124,119 
Business Affairs                      310,000                 0          99,000          99,000                0           148,319             148,319 
Programming Development               918,000                 0         318,825         318,825                0           503,566             503,566 
Broadcast                             694,000                 0         582,000         582,000                0           560,338             560,338 
Outreach                              531,000                 0         307,000         307,000                0           517,340             517,340 
Promotion                             878,000                 0         278,831         278,831                0           416,826             416,826 
Web/New Media                         227,000                 0          54,000          54,000                0           163,849             163,849 
                                                                                                                                        
                        Total:  $11,800,000                  $0      $2,976,658      $2,976,658               $0        $2,434,357          $2,434,357 
                                                                                                                                       
                                                                                                                                       
Budget Funds Remaining to be Spent as of 9/30/2009 (Budget less ITVS Total Committed to Date)                                               $9,365,643 
                                                                                                                                       
Budget Funds Remaining to be Disbursed by CPB as of 9/30/2009 (Budget less CPB Total Disbursed to Date)                                     $8,823,342 




                                                                        38
                                                                              Exhibit K
                                                  
                 INDEPENDENT TELEVISION SERVICE, INC.
             Report to the Corporation for Public Broadcasting
    Securing Digital Rights and Readying ITVS Programs for Multiplatform
                                 Distribution
                        For the Period 6/1/07 – 9/30/08
                                                                                   

                                                      Original                  Actual
                                                      Budget                   to Date
                                                                                    
Rights Acquisition:                                                        
  Personnel:                                                               
    Director of Digital Initiatives                       $90,000                  $36,885 
    Technical Coordinator                                  70,000                   86,723 
    Benefits                                               30,000                   27,322 
                                                         $190,000                 $150,930 
                                                                           
  Program Fees:                                                            
    Producer License Fees and Clearances                 $320,000                 $338,333 
                                                                           
Production, Post Production:                                               
Producer                                                     $50,000                  $73,361 
Technical Consultants, Contractors                            80,000                   80,241 
Compression and Output:                                                    
Tape Stock                                                  20,000                   16,310 
Offline Edit Suite                                          30,000                   31,527 
Digitization of Media                                       40,000                   43,228 
Technical Evaluation                                        20,000                   16,070 
                                                          $240,000                 $260,737 
                                                                           
                              Total                      $750,000                 $750,000 




                                            39
                                                                                                                            Exhibit L
                                                                                                 
                         INDEPENDENT TELEVISION SERVICE, INC.
                                       Budget Phase II
        Securing Digital Rights and Readying Programs for Multiplatform Distribution
                                 Final Report for the Period
                                      10/1/08 – 9/30/09
                                                                                                 
                                                                                 Previously              Current 
                                                                                 Reported                Period             Total Grant 
                                                            Budget               Expenses               Expenses             Expenses 
                                                                                                                                    
Digital Assets Management & Rights Acquisition:                                                                          
  Personnel:                                                                                                             
    Director of Digital Initiatives                           $71,000               $39,808                     $0               $39,808 
    Digital Producer                                           62,000                41,076                 30,450                71,526 
    Digital Coordinator                                        40,000                16,829                 22,115                38,944 
                                                             $173,000               $97,713                $52,565              $150,278 
    Benefits                                                   38,000                20,583                 11,565                32,148 
                        Total Personnel                      $211,000              $118,296                $64,130              $182,426 
                                                                                                     
  Producer License Fees:                                     $340,000              $294,582                 $9,973              $304,555 
                                                                                                  
  Technical Consultants/Contractors:                                                                                     
Digitization, Digital Asset Management and Business 
Rights Management Activities                                  100,000               165,510                  5,579               171,089 
    Digital Assets Management & Rights Acquisition           $651,000              $578,388                $79,682              $658,070 
                                                                                                  
Production & Post Production:                                                                                            
  Production Elements:                                                                                                   
Editing, Reversioning, Tape Stock, Dubbing, Close 
Captioning, Packaging                                            $99,000             $76,909               $15,021                $91,930 
             Production & Post Production                         99,000              76,909                15,021                 91,930 
                                                                                                     
                          Total                              $750,000              $655,297                $94,703              $750,000 
                                                                                                  
Total Funds Remaining:                                                                                                                 $0 




                                                            40
                                                                       Exhibit M
                                 
            INDEPENDENT TELEVISION SERVICE, INC.
               My Source (PAI) Training & Marketing
                     Report as of 9/30/2008
                                                                    
                                                  Original                Actual 
                                                  Budget                 to Date 
                                                                     
Revenues:                                                             
                                                                      
CPB Grant                                               $64,775               $64,775 
                                                                      
Expenses:                                                             
                                                                      
Salaries:                                                             
  Project Director                                      $12,000    
  Outreach and Publicity Staff                              9,000    
  Production Staff                                          5,000    
  Executive Administration                                  5,000    
  Benefits (at 20%)                                         6,200    
                                                                      
        Total Salaries and Benefits                     $37,200               $52,395 
                                                                      
Contractor Services                                     $13,000                 $1,525 
                                                                      
Travel:                                                               
  Round Trip Airfare                                      $3,900    
  Ground Transportation                                     1,200    
  Hotel                                                     3,575    
  Per Diem                                                    900    
                                                                      
                Total Travel                              $9,575                $2,832 
                                                                      
Administrative Expenses and Tech 
Support                                                     5,000                8,118 
                                                                      
            Total Project Costs                         $64,775              $64,870 
                                                                     
* The OIG prepared this schedule using the ITVS FY 2008 trial balance because this 
was a fixed fee grant agreement and CPB did not require ITVS to submit a final 
financial report. 




                                        41
                                                                       Exhibit N

            INDEPENDENT TELEVISION SERVICE, INC.
             My Source (PAI) Community Impact Demo
                     Report as of 9/30/2009
                                                                    
                                                  Original                Actual 
                                                  Budget                 to Date 
                                                                    
Revenues:                                                            
CPB Grant                                             $120,000              $120,000  
                                                                     
Expenses:                                                            
ITVS Salaries:                                                       
  Production Staff                                     $35,000    
  Benefits (at 20%)                                      7,000    
        Total Salaries and Benefits                    $42,000                $31,681  
Travel:                                                              
  Round Trip Airfare                                    $4,800    
  Ground Transportation                                  1,200    
  Hotel                                                  2,000    
  Per Diem                                                  480    
                Total Travel                            $8,480                  $8,565  
                                                                     
Production:                                                          
  Independent Producer Stipends                        $10,000    
  Camera Package and Shooter                            10,400    
  Sound Person                                           4,000    
  Location Costs                                            600    
  Tapes and Materials                                    2,500    
              Total Production                         $27,500                $38,798  
Post Production:                                                     
  Editor                                               $10,500    
  Graphics                                              13,520    
  Sound Mix                                              5,000    
  Edit Suite                                             9,000    
  Tape Stock                                             2,500    
  Music                                                  1,500    
           Total Post Production                       $42,020                $41,150  
                                                                     
            Total Project Costs                       $120,000              $120,194  
 
* The OIG prepared this schedule using the ITVS FY 2008‐2009 trial balances because 
this was a fixed fee grant agreement and CPB did not require ITVS to submit a final 
financial report. 



                                         42
                                                                                             Exhibit O

               INDEPENDENT TELEVISION SERVICE, INC
           Productions with De-obligations and Re-obligations
      During FYs 2008 and 2009 after the 4-year Grant Term Expired

                                      Production
                                      Grant Funds                         Year
                                       Originally                        Funds        Amount Re-
          Productions                    Used              Amount        Expired       obligated

   1 Absolutely Safe*                     2004              $196,000       2007           $110,000
   2 Cushion the Fall*                    1997                15,000       2000              1,500
   3 Death of a Shaman*                   2001                74,000       2004              7,260
   4 Mai's America*                       1998               211,543       2001              2,254
   5 New Cop on the Beat*                 1996               226,404       1999             19,476
   6 The Split Horn*                      1999               132,864       2002              3,364
   7 Turned Out*                          2002               281,000       2005             11,484
   8 Chisholm for President ‘72           2002               290,800       2005              5,938
   9 Country Boys                         2004               746,908       2007             47,865
10 Every Mother’s Son                     2000               253,921       2003             10,229
11 Flag Wars                              2001               295,121       2004              3,554
12 Foto-Novelas: Season II                2001               817,461       2004             40,876
13 Freedom Machines                       2002               200,000       2005              8,377
  14 Get the Fire! Young Mormon           2000               262,547       2003             11,128
15 King Kamehameha I: A Legacy            2000                75,000       2003              6,609
16 Mirror Dance                           2003               235,000       2006             10,947
17 This Far by Faith                      2002               250,000       2005              7,783
Total FY 2009 Re-obligations                                                              $308,644
                                                                                                    
  1  Alcatraz is Not an Island            2000                97,855       2003                $22
  2  Hiding and Seeking                   2000               267,344       2003                443
  3  Na Kamalei: The Men of Hula          2003               202,000       2006              1,039
  4  One Night at the Grand Star          2000               128,987       2003              1,665
  5  A Panther in Africa                  2002                86,000       2005                771
  6  Recalling Orange County              2003               192,975       2006                566
  7  Sun River Homestead                  1998                24,629       2001                 20
  8  Taking the Heat                      2001               237,571       2004              1,120
  9  A Wok‐in‐Progress                    1997              $215,220       2000                199
Total FY 2008 Re-obligations                                                                $5,845
     Total FY 2008 and 2009                                                               $314,489

*Re-obligations total $155,338 for these 7 productions, which were used as an example on page 9 .
 




                                                  43
                                                                                 Exhibit P

                        INDEPENDENT TELEVISION SERVICE, INC
                              FY 2009 Operations Grant
                            Comparison of Budget to Actual

                                                                         Variances
                                                          Actual
                                           Expenses      Expenses     Budget
                                           Reported      (General      vs.
     Expense Category            Budget     to CPB        Ledger)     Actual     Percent

Salaries, Taxes, and Benefits   $664,000    $667,107      $668,671     $4,671       1
Accounting & Audit Fees           23,000        21,426      21,426     (1,574)     (7)
Conferences & Special Events      61,000        56,495      56,495     (4,505)     (7)
Equipment                         16,000        16,632      24,132      8,132      51
Insurance                         11,000         8,018       8,010     (2,990)    (27)
Office                            21,684        22,665      23,765      2,081      10
Office Lease                      94,000        95,845     108,845     14,845      16
Outreach Activities                8,500         7,696       7,696      (804)      (9)
Postage/FedEx/UPS                  4,500         5,285       8,285      3,785      84
Printing                            500          2,111       3,737      3,237      647
Professional Services             19,100        18,532      39,814     20,714      108
Telephone/Fax                      9,000         9,812       9,812        812       9
Travel                            35,500      36,160         55,660    20,160      57
               Totals           $967,784    $967,784     $1,036,349   $68,565      7




                                           44
